Audit Report, “NASA’s Performance Measure Data Under the Federal Information
Security Management Act” (IG-05-025, September 16, 2005)

The NASA Office of Inspector General completed an audit of NASA performance
measures reported under the Federal Information Security Management Act of 2002
(FISMA). We performed this audit to determine whether certain information technology
(IT) security performance measures complied with National Institute of Standards and
Technology (NIST) guidance and NASA Procedural Requirements for IT security. We
also assessed the accuracy of data NASA reported on those performance measures in the
first quarter Fiscal Year (FY) 2004 FISMA Report to the Office of Management and
Budget (OMB).

We noted several significant internal control weaknesses associated with the certification
of IT systems, IT risk assessments, IT system security control testing and evaluation, and
IT contingency plan testing. Specifically, the NASA certification process did not ensure
that security controls on IT systems were tested, evaluated, and certified by an
independent party. NASA’s IT risk assessment policies and procedures were
inconsistently implemented from Center to Center and NASA’s annual security control
testing and evaluation of IT systems were not conducted in accordance with Federal
requirements. Also, we identified IT system contingency plans that were not tested in
accordance with Federal guidance. NASA concurred with our recommendations and
either took or was planning to take appropriate corrective actions.

The report contains NASA Information Technology/Internal Systems Data that is not
routinely released under the Freedom of Information Act (FOIA). To submit a FOIA
request, see the online guide.
